@OCKLE

2311 Douglas Street Le ga 1 Bri efs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-431 and 19-454

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME, PETITIONER,

v.
THE COMMONWEALTH OF PENNSYLVANIA AND THE STATE
OF NEW JERSEY, ET AL., RESPONDENTS.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS,

v.
THE COMMONWEALTH OF PENNSYLVANIA AND THE STATE
OF NEW JERSEY, ET AL., RESPONDENTS.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Sth day of March, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR THE CATO INSTITUTE AND JEWISH COALITION
FOR RELIGIOUS LIBERTY AS AMICI CURIAE SUPPORTING PETITIONERS in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JOSH BLACKMAN ILYA SHAPIRO
Counsel of Record Cato Institute
1303 San Jacinto Street 1000 Mass. Ave., NW
Houston, TX 77002 Washington, D.C. 20001
202-294-9003 (202) 842-0200
josh@joshblackman.com ishapiro@cato.org
HOWARD SLUGH

2400 Virginia Ave., NW, Apt. C619
Washington, DC 20037

(954) 328-9461

hslugh@jerLorg

Subscribed and sworn to before me this Sth day of March, 2020.

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL MOTARY-State of Mebraska K,
RENEE J. GOSS
My Comm, Exp, September 5, 2023

Notary Public.

 

0. Beso Oudiaw-h, Bhle

Affiant 39459
 

[attorneys for Petitioner

Mark Leonard Rienzi The Becket Fund for Religious Liberty 202-349-7208
Counsel of Record 1200 New Hampshire Ave., NW
Suite 700

Washington, DC 20036

mrienzi@becketlaw.org

Party name: The Little Sisters of the Poor Saints Peter and Paul Home

 

Attorneys for Respondents

Michael J. Fischer Pennsylvania Office of Attorney General 215-560-2171
Counsel of Record 1600 Arch St.
Suite 300

Philadelphia, PA 19103

mfischer@attorneygeneral.gov

Party name: Commonwealth of Pennsylvania et al.

 

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Federal Respondents

 
